    DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General


                                                                                  Region IX
                                                                                  Office of Audit Services
    MAY 062009                                                                           h
                                                                                  90 - i Street, Suite 3-650
                                                                                  San Francisco, CA 94103




Report Number: A-09-09-00060

Ms. Maureen Shaw
Regional Privacy Officer and Compliance Manager
Providence Saint Joseph Medical Center
501 South Buena Vista Avenue
Burbank, California 91505

Dear Ms. Shaw:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of Oxaliplatin Billing at Providence Saint Joseph
Medical Center for Calendar Year 2005." We will forward a copy ofthis report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, DIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please call Tom Lin, Senior Auditor, at
(415) 437-8374 or Alice Norwood, Audit Manager, at (415) 437-8360. Please refer to
report number A-09-09-00060 in all correspondence.

                                               Sincerely,


                                             X~ 0P.~
                                               Lori A. Ahlstrand
                                               Regional Inspector General
                                                for Audit Services


Enclosure
Page 2 - Ms. Maureen Shaw


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





           REVIEW OF

     OXALIPLATIN BILLING AT

    PROVIDENCE SAINT JOSEPH

        MEDICAL CENTER

    FOR CALENDAR YEAR 2005





                    Daniel R. Levinson

                     Inspector General


                        May 2009

                      A-09-09-00060

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND


Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have pennanent kidney
disease. Medicare uses an outpatient prospective payment system to pay for hospital outpatient
services.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1,2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

Providence Saint Joseph Medical Center (Providence Saint Joseph) is a hospital located in
Burbank, California. We reviewed pay~ents to Providence Saint Joseph for oxaliplatin provided
to Medicare beneficiaries during calendar year (CY) 2005.

OBJECTIVE

Our objective was to detennine whether Providence Saint Joseph billed Medicare for oxaliplatin
in accordance with Medicare requirements.

SUMMARY OF FINDING

During CY 2005, Providence Saint Joseph did not bill Medicare in accordance with Medicare
requirements for the one oxaliplatin outpatient claim that we reviewed. Providence Saint Joseph
billed Medicare for an incorrect number of service units for that claim and received an
overpayment of approximately $13,055. The overpayment occurred because the hospital did not
apply the service unit conversion correctly.

RECOMMENDATIONS

We recommend that Providence Saint Joseph:

   •	 work with the fiscal intennediary to adjust the claim and refund approximately $13,055
      for the identified overpayment and

   •	 ensure that service units of drugs billed correspond to units of drugs administered.

PROVIDENCE SAINT JOSEPH COMMENTS

In its comments on our draft report, Providence Saint Joseph stated that it will work with the
fiscal intennediary to refund the overpayment. In addition, Providence Saint Joseph stated that it
had established procedures to ensure that service units of drugs billed correspond to units of
drugs administered. Providence Saint Joseph's comments are included in their entirety as the
Appendix.
                            TABLE OF CONTENTS



INTRODUCTION                                     1


    BACKGROlJND                                  1

        Outpatient Prospective Payment System    1

        Oxaliplatin                              1

        Providence Saint Joseph Medical Center   1


    OBJECTIVE, SCOPE, AND METHODOLOGY            1

         Objective                               1

         Scope                                   1

         Methodology                             2


FINDING AND RECOMMENDATIONS                      2


    MEDICARE REQUIREMENTS                        2


    INCORRECT NUMBER OF SERVICE lJNITS BILLED    3


    RECOMMENDATIONS                              3


    PROVIDENCE SAINT JOSEPH COMMENTS             3


APPENDIX

    PROVIDENCE SAINT JOSEPH COMMENTS




                                       11
                                       INTRODUCTION


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have pennanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS applies to
services furnished on or after August 1, 2000.

Under the OPPS, Medicare pays for services on a rate-per-service basis using the ambulatory
payment classification group to which each service is assigned. The OPPS uses the Healthcare
Common Procedure Coding System (HCPCS) to identify and group services into an ambulatory
payment classification group.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1,2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

Providence Saint Joseph Medical Center

Providence Saint Joseph Medical Center (Providence Saint Joseph) is a hospital located in
Burbank, California. Providence Saint Joseph's Medicare claims are processed and paid by
Noridian Administrative Services, the fiscal intermediary.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to detennine whether Providence Saint Joseph billed Medicare for oxaliplatin
in accordance with Medicare requirements.

Scope

We identified and reviewed one claim for which Providence Saint Joseph billed HCPCS code
C9205 for more than 100 service units of oxaliplatin and received a Medicare payment of
$15,649 for oxaliplatin furnished to a hospital outpatient during calendar year (CY) 2005.

We limited our review of Providence Saint Joseph's internal controls to those applicable to
billing for oxaliplatin services because our objective did not require an understanding of all



                                                 1

internal controls over the submission of claims. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from CMS's National Claims
History file for CY 2005, but we did not assess the completeness of the file.

We performed our audit from December 2008 through February 2009.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws, regulations, and guidance;

   •	 used CMS's National Claims History file for CY 2005 to identify Medicare claims for
      which Providence Saint Joseph billed at least 100 service units of oxaliplatin under
      HCPCS code C9205 and received Medicare payments for those units;

   •	 contacted Providence Saint Joseph to determine whether the identified oxaliplatin

      services were billed correctly and, if not, why the services were billed incorrectly;


   •	 obtained and reviewed records from Providence Saint Joseph that supported the identified
      claim; and

   •	 repriced incorrectly billed service units using ambulatory payment classification groups
      payment information for the billed HCPCS codes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

During CY 2005, Providence Saint Joseph did not bill Medicare in accordance with Medicare
requirements for the one oxaliplatin outpatient claim that we reviewed. Providence Saint Joseph
billed Medicare for an incorrect number of service units for that claim and received an
overpayment of approximately $13,055. The overpayment occurred because the hospital did not
apply the service unit conversion correctly.

MEDICARE REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS's "Medicare Claims
Processing Manual," Pub. No.1 00-04, chapter 4, section 20.4, states: "The definition of service
units ... is the number of times the service or procedure being reported was performed." In




                                                2

addition, chapter 1, section 80.3.2.2, of this manual states: "In order to be processed correctly
and promptly, a bill must be completed accurately."

Through CMS Transmittal A-03-051, Change Request 2771, dated June 13,2003, CMS
instructed hospital outpatient departments to bill for oxaliplatin using HCPCS code C9205
effective July 1,2003. The description for HCPCS code C9205 is "injection, oxaliplatin, per
5 [milligrams]." Therefore, for each 5 milligrams of oxaliplatin administered to a patient,
outpatient hospitals should have billed Medicare for one service unit during our audit period.

Effective January 1,2006, CMS instructed hospitals to bill Medicare for oxaliplatin using
HCPCS code J9263. The service unit for that code is 0.5 milligrams.

INCORRECT NUMBER OF SERVICE UNITS BILLED

During CY 2005, Providence Saint Joseph billed Medicare for an incorrect number of service
units for the one oxaliplatin claim that we reviewed. Providence Saint Joseph billed 200 service
units for 200 milligrams of oxaliplatin administered instead of the appropriate 40 service units.
Medicare required billing one service unit for each 5 milligrams of oxaliplatin administered. For
the one claim, Providence Saint Joseph received an overpayment of approximately $13,055.

The overpayment occurred because the hospital did not apply the service unit conversion
correctly.

RECOMMENDATIONS

We recommend that Providence Saint Joseph:

   •	 work with the fiscal intermediary to adjust the claim and refund approximately $13,055
      for the identified overpayment and

   •	 ensure that service units of drugs billed correspond to units of drugs administered.

PROVIDENCE SAINT JOSEPH COMMENTS

In its comments on our draft report, Providence Saint Joseph stated that it will work with the
fiscal intermediary to refund the overpayment. In addition, Providence Saint Joseph stated that it
had established procedures to ensure that service units of drugs billed correspond to units of
drugs administered. Providence Saint Joseph's comments are included in their entirety as the
Appendix.




                                                 3

APPENDIX

                                                                                                          APPENDIX

                                                                                                           Page 1 of2





3-{) I   S.   i):)(!!',.-. V::\~d ~"rt~p;
:~:.;;b,~d.       U'. ~i_~ SC:i
't'1\."!1I1,r,,!':}'oj:df::~,~e   org




                                                                               + t'ttOVIDENCE
                                                                               1i   Health 8< Service.>
                                                                                    California
April 20, 2009

Lori A. Ahlstrand
Office of Inspector General, Office ofAudit Services
90 ­ 7th Street, Suite 3-650
San Francisco, CA 94103

                                            Re: Report Number- A-09-09-00060

Dear Ms. Ahlstrand:

In response to Your draft audit report titled "Review of Oxaliplatin Billing at Providence
Saint Joseph Medical Center for Calendar Year 2005," dated March 19, 2009, the
recommendations have been reviewed. We have provided a written response
regarding our stand on each recommendation below. :

Recommendation #1: Work with the fiscal intermediary to adjust the claim and
refund approximately $13.056 in Identified overpayment

-Re&ponse to Recommendation #1: We concur with the approach to work with the
  appropriate fiscal intermediary for the time period, Noridian, to recoup the
  overpayment. The payment will either be retracted by Noridian or we will receive
  instructions as to how to refund the overpayment.

Recommendation #2: Ensure that service units of drugs billed correspond to
units of drugs administered.

• Respol'lse to Recommendation #2: We concur with this recommendation and have
already established procedures for;

       1.	 Reviewing the charge master which includes:

                 a.	 Changes to a charge master item code for HCPCS coding, narrative
                     descriptions, pricing and other changes

                 b.	 charge additions (new codes)

                 c.	 charge in-activations

Review of the charge master is now the responsibility of the charge master coordinator
and a team of registered nurses with several years experience in working with charge


                                                           Page.1
                                                                                                       APPENDIX
                                                                                                       Page 2 of2



~iG: s. a~:d·:C: ;'/i'it,1 ~tr~r:,!
Bl;~b~~~~y..   Ct\   !'~ 1~.(I~.
"Jlv'N.J. pr;.l,';celx~:. ::ii":l




                                                                     + FNl('~lIDENCE
                                                                      . . . .	   Healt!' &: Service5
                                                                                 California

masters. This team reviews all changes. additions and in-activations before the bills are
processed. The team members receive all government program announcements and
subscribe to other services to help improve the accuracy of the charge master.

     2.	 We contract with an outside vendor for a review of our charge master to help
         assure that the coding and descriptions are correctand updated timely.

      3.	 We have a team of registered nurse auditors who audit outpatient Medicare claims
          with retail charges over $75.000. This audit is conducted, and any changes are
          posted. before the initial billing is submitted to Medicare. As drugs are expensive
          items in our charge master. this audit selection point captures expensive drugs
          with large quantities.

     4.	 A policy by which pharmacy charges posted are reconciled daily.

Should you have any further questions or need additional information regarding the
responses, please contact me as needed.




Arnold Krauss, CIA, CHC
Regional Compliance Officer
Providence Saint Joseph Medical Center

cc:	 Clyde Evans




                                          Page 2
